CERTIFICATE OF SERVICE
No.
Jason Edward Rheinstein
Petitioner
v.
Attorney Grievance Comm'n. of Maryland
Respondent
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the JASON
EDWARD RHEINSTEIN PETITION FOR WRIT OF CERTIORARI, by mailing three (1) true and correct copy
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Michele J. McDonald
Assistant Atty General of Maryland
200 St. Paul Place, 20th Floor
Baltimore, MD 21202
(410) 576-7935
mmcdonald@oag.state.md.us
Counsel for Attorney Grievance Comm 'n. of Maryland

August 6, 2020
SCP Tracking: Rheinstein-P.O. Box 1369-Cover White

SUPREME COURT PRESS
1089 COMMONWEALTH AVE. I SUITE 283
BOSTON, MA 02215
PHONE: (888) 958-5705 FAX: (888) 958-5798
WWW.SUPREMECOURTPRESS.COM
EDITOR@SUPREMECOURTPRESS.COM

August 6, 2020
Michael Duggan
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Jason Edward Rheinstein v. Attorney Grievance Comm 'n. of Maryland, Dkt. 20-123
Dear Mr. Duggan,
As we discussed earlier this week, the Petitioner Jason Edward Rheinstein needed to submit an updated
petition to correct several problems including incorrect font and spacing, lack of table of authorities,
and that his first question was not appearing on page 1 as would be required.
Here is the corrected petition for Enclosed in this package you will find the following documents
pertaining to the above captioned matter:
One copy of the JASON EDWARD RHEINSTEIN PETITION FOR WRIT OF CERTIORARI
Note: There is no change to the appendix
Certificate of Service
Certified Word Count

Our firm, the Supreme Court Press is document preparer. If there are any questions or concerns, we
can be reached at (888) 958-5705 or by email at editor@supremecourtpress.com.

With warm regards,

The Supreme Court Press

SCP Tracking: Rheinstein-P.O. Box 1369-Cover White

